HHS/OIG-AUDIT--Post Retirement Benefit Costs Claimed by Blue Cross and Blue Shield of Michigan (A-07-96-01177)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Post Retirement Benefit Costs Claimed by Blue Cross and Blue Shield
of Michigan," (A-07-96-01177)
November 6, 1996
Complete Text of Report is available in PDF format
(373K). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of an Office of Inspector General (OIG), Office
of Audit Services (OAS) review titled Post Retirement Benefit Costs Claimed
by Blue Cross and Blue Shield of Michigan. The purpose of our review was
to determine the allowability of $8,979,998 in post retirement benefit (Post
Retirement) costs claimed for Medicare reimbursement by Blue Cross and Blue
Shield of Michigan (Michigan). The $8,979,998 represents Post Retirement costs
that will be incurred subsequent to the termination of Michigan's Medicare contracts.
The review showed that the claimed costs are unallowable for Medicare reimbursement
and we recommend that Michigan withdraw the claim.
Michigan disagrees with our recommendation and maintains that the Health Care
Financing Administration (HCFA) is responsible for reimbursing Post Retirement
costs attributable to Michigan's administration of Medicare.